                                                                             Report No. DODIG-2015-006



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              OCTOBER 9, 2014




                     Policy Changes Needed at Defense
                     Contract Management Agency
                     to Ensure Forward Pricing Rates
                     Result in Fair and Reasonable
                     Contract Pricing




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
      I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                           Mission
        Our mission is to provide independent, relevant, and timely oversight
        of the Department of Defense that supports the warfighter; promotes
        accountability, integrity, and efficiency; advises the Secretary of
                   Defense and Congress; and informs the public.



                                            Vision
        Our vision is to be a model oversight organization in the Federal
        Government by leading change, speaking truth, and promoting
        excellence—a diverse organization, working together as one
                 professional team, recognized as leaders in our field.




                                       Fraud, Waste & Abuse

                                       HOTLINE
                                       Department of Defense
                                       dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Policy Changes Needed at Defense Contract Management
                                Agency to Ensure Forward Pricing Rates Result in Fair
                                and Reasonable Contract Pricing


October 9, 2014                                   Findings (cont’d)

Objective                                         that can help ensure that scarce DoD contract administration
                                                  and contract audit services are used efficiently. Finally,
We reviewed Defense Contract Management           DCMA policy does not require the ACO to establish a contract
Agency (DCMA) forward pricing rate                case file. Without sufficient case file documentation, DCMA
policy and practice for indirect rates for        cannot demonstrate that use of their forward pricing rates to
compliance with the Federal Acquisition           negotiate at least $70 billion in Government sales results in fair
Regulation (FAR) and DoD policy. DCMA             and reasonable contract prices.
forward pricing rate policy covers the
353 contractor locations where DoD                In response to our findings, DCMA revised its policy on
contracting officers use DCMA forward             July 21, 2014, to require the ACO perform a cost analysis
pricing rates to negotiate at least $70 billion   and identify and address any cost analysis techniques and
in Government sales.                              procedures that can be used to ensure fair and reasonable rates.


Findings                                          Recommendations
DCMA policy does not adequately address           We recommend that DCMA revise its forward pricing rate
Federal Acquisition Regulation (FAR)              policy to require the ACO (1) tailor any requests for audit
requirements to (1) perform cost analysis         services in accordance with the FAR, (2) establish, maintain,
to establish fair and reasonable forward          and dispose of Government contract case files, and (3) provide
pricing rates, (2) tailor the requests for        training on the use of the revised DCMA forward pricing
audit services, and (3) document a contract       rate policy.
case file. The case file documentation
at the eight sites we visited was not
sufficient to demonstrate that use of DCMA
                                                  Management Comments and
forward pricing indirect rates to negotiate       Our Response
an estimated $4.5 billion in contractor-          The Director, DCMA concurred with our recommendation to
proposed indirect costs resulted in fair and      establish policy on contract case files and training. Regarding
reasonable contract prices. The contract          the FAR requirement to tailor a request for audit services,
case files did not demonstrate that the           DCMA concurred in principle. Although DCMA identified
administrative contracting officers (ACOs)        potential obstacles to promptly implementing corrective
had tailored the request for audit services       actions, these obstacles should not prevent DCMA from
to reflect only the minimum essential             appropriately tailoring audit requests in accordance with the
supplementary information needed by the           FAR. The management comments were responsive and no
ACO to conduct a cost analysis, an action         additional comments are required.




Visit us at www.dodig.mil


                                                                      DODIG-2015-006 (Project No. D2013-DAPOCF-0081.001) │ i
           Recommendations Table
                                                            Recommendations       No Additional
                                        Management          Requiring Comment   Comments Required
                                                                                A, B.1.a, B.1.b, B.2,
             Director, Defense Contract Management Agency         None             C.1, and C.2.




ii │ DODIG-2015-006 (Project No. D2013-DAPOCF-0081.001)
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                                  October 9, 2014

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY

SUBJECT:	 Policy Changes Needed at Defense Contract Management Agency (DCMA) to
	         Ensure Forward Pricing Rates Result in Fair and Reasonable Contract Pricing
	         (Report No. DODIG-2015-006)

We are providing this report for your information and use. We found that DCMA policy does
not adequately address Federal Acquisition Regulation (FAR) requirements to (1) perform
cost analysis to establish fair and reasonable forward pricing rates, (2) tailor the requests for
audit services, and (3) document a contract case file. DCMA forward pricing rates are used to
negotiate at least $70 billion in Government sales.

We considered management comments when preparing the final report. DCMA concurred
with all recommendations but indicated obstacles may prevent implementation of
Recommendations B.1.a and B.1.b. We find that application of existing FAR and DoD policy
can overcome these obstacles. The comments from DCMA conformed to DoD Directive 7650.3;
therefore, we do not require additional comments.

We appreciate the courtesies extended to our staff. Please direct any questions to
Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877) or email at Carolyn.Davis@dodig.mil.




	                                               Randolph R. Stone
	                                               Deputy Inspector General
	                                               Policy and Oversight




                                                                                           DODIG-2015-006 │ iii
                  Contents
                  Introduction
                  Objective _________________________________________________________________________________________1
                  Background ______________________________________________________________________________________1

                  Finding A. DCMA Forward Pricing Rates Did Not
                  Demonstrate Fair and Reasonable Contract Prices__________3
                  Indirect Cost Allocation Rates__________________________________________________________________3
                  Forward Pricing Rate Recommendations and Agreements__________________________________4
                  FAR Criteria______________________________________________________________________________________4
                  DCMA Policy______________________________________________________________________________________5
                  DCMA Practice at Eight Contractor Locations________________________________________________5
                  Management Actions Taken____________________________________________________________________7
                  Recommendation, Management Comments, and Our Response_____________________________7

                  Finding B. ACOs Did Not Tailor Requests for Audit
                  Services to Reflect the Minimum Information Needed
                  to Perform a Cost Analysis____________________________________________________8
                  FAR Criteria______________________________________________________________________________________8
                  DCMA Policy______________________________________________________________________________________9
                  DCMA Practice at Eight Contractor Locations________________________________________________9
                  Recommendation, Management Comments, and Our Response __________________________ 10

                  Finding C. DCMA Policy Can Better Identify the
                  Requirements of a Contract Case File for Forward
                  Pricing Rates___________________________________________________________________________ 13
                  FAR Criteria____________________________________________________________________________________ 13
                  DCMA Policy____________________________________________________________________________________ 13
                  DCMA Practice at Eight Contractor Locations______________________________________________ 14
                  Management Actions Taken__________________________________________________________________ 14
                  Recommendation, Management Comments, and Our Response___________________________ 15




iv │ DODIG-2015-006
Contents (cont’d)
Appendixes
Appendix A. Scope and Methodology________________________________________________________ 16
	   Use of Computer-Processed Data _______________________________________________________ 17
	   Prior Coverage ____________________________________________________________________________ 17
Appendix B. Identification of Cost Analysis Techniques and Procedures Included in the
   FAR and in DCMA-Instruction 130, “Forward Pricing Rates” ________________________ 18

Management Comments
Defense Contract Management Agency Comments_________________________________________ 20

Acronyms and Abbreviations______________________________________________ 24




                                                                                                     DODIG-2015-006 │ v
                                                                                                                                Introduction




Introduction
Objective
We performed an oversight review of the actions taken by the Defense Contract
Management Agency (DCMA) to establish forward pricing rate recommendations
(FPRR) and forward pricing rate agreements (FPRA) for proposed indirect rates
and costs1 at eight large DoD contractor locations. Purchasing supplies and
services from responsible sources at fair and reasonable prices is a requirement of
Federal Acquisition Regulation (FAR) 15.402, “Pricing Policy.” Contracting officers
use FPRRs and FPRAs to assist them in this process. Our objective was to evaluate
the procedures performed by DCMA administrative contracting officers (ACOs)
to establish FPRRs and FPRAs and to evaluate whether those procedures meet
the requirements of the FAR and DoD policy. See Appendix A for our scope
and methodology.


Background
Indirect Costs
Contractors estimate and incur direct and indirect costs when performing
Government contracts. The Defense Acquisition University’s Acquisition
Community Connection website provides Contract Pricing Reference Guides in five
volumes. Volume 4 – “Advanced Issues in Contract Pricing,” Chapter 2, “Evaluating
Indirect Costs,” paragraph 2.1.1, describes a typical indirect cost as follows:

                 Costs that cannot be specifically identified with the production or
                 sale of a particular product or completion of a single contract. In
                 accounting terms, these costs cannot be identified with a single
                 final cost objective. Instead they are identified with two or more
                 final cost objectives or an intermediate cost objective.


Defense Contract Management Agency
FAR Part 42, “Contract Administration and Audit Services,” assigns the ACO the
contract administration function of negotiating forward pricing rate agreements.
DoD Directive 5105.64, “Defense Contract Management Agency (DCMA),” states that
DCMA shall perform contract administration services for DoD and others,
as authorized.




	1	
      For this review, we focused on actions taken by DCMA ACOs to establish forward pricing rates for contractor-proposed
      overhead costs, fringe benefit costs, and general and administrative expenses.




                                                                                                                             DODIG-2015-006 │ 1
Introduction



                 FPRRs and FPRAs in Pricing Negotiated Government Contracts
                 DCMA Instruction 130, “Forward Pricing Rates,” states that a FPRR or FPRA shall
                 be established for all contractors with more than $200 million in negotiated
                 Government sales in the prior contractor fiscal year. DCMA has identified
                 353 contractor locations that meet this standard. At a minimum of $200 million
                 per contractor location, these 353 contractor locations accounted for at least
                 $70 billion in negotiated Government sales. 2

                 For this review, we selected eight contractor locations where DCMA had established
                 an FPRR or FPRA. Based on information provided by the DCMA ACO at each
                 location, we estimated that these eight contractors had a total of $21.5 billion in
                 negotiated Government sales during the periods covered by the particular FPRR or
                 FPRA (see Table 1).

                 Table 1. DCMA-Identified Value of Negotiated Government Sales at the Eight Contractor
                 Locations Visited
                                                                                                    Rate                 Negotiated
                                                Contractor                                         Vehicle            Government Sales
                                                                                                   (Note)                 (billions)
                     Lockheed Martin Missiles & Fire Control, Orlando                               FPRA                       $ 2.7
                     Raytheon Missile Systems                                                       FPRR                         4.1
                     Bell Helicopter-Textron, Inc.                                                  FPRR                         2.3
                     Boeing Integrated Logistics & Training                                         FPRR                         1.0
                     General Atomics Aeronautical Systems, Inc.                                     FPRA                         1.9
                     BAE Systems Land & Armaments L.P. – York                                       FPRR                         1.6
                     Northrop Grumman Information Systems                                           FPRR                         6.4
                     L-3 Communications Mission Integration Division                                FPRR                         1.5
                      Total                                                                                                   $21.5
                     Note: FPRA refers to a Forward Pricing Rate Agreement and FPRR refers to a Forward Pricing
                     Rate Recommendation.




                 	2	
                       The Director, Cost and Pricing Policy, DCMA, advised the OIG that DCMA does not compile (1) the value of negotiated
                       Government sales in its management information system for the contractor locations that meet the dollar criteria for
                       establishing forward pricing rates or (2) the value of proposed indirect costs that were negotiated based on the use of its
                       FPRRs and FPRAs.




2 │ DODIG-2015-006
                                                                                                                                  Finding A




Finding A
DCMA Forward Pricing Rates Did Not Demonstrate Fair
and Reasonable Contract Prices
The DCMA case file documentation we reviewed did not demonstrate that the
DCMA forward pricing indirect rates used to negotiate an estimated $4.5 billion3 in
contractor-proposed indirect costs resulted in fair and reasonable contract prices.
Without sufficient case file documentation, we cannot provide a reliable estimate
of the monetary impact that use of the DCMA FPRRs and FPRAs may have had on
the prices negotiated by Government contracting officers for the proposed indirect
costs. Additionally, DCMA forward pricing rate policy does not adequately address
the FAR requirements to perform a cost analysis to establish fair and reasonable
FPRR or FPRA rates at the 353 locations where DCMA administers forward pricing
rates. FAR 15.402, Pricing Policy, states that contracting officers shall purchase
supplies and services from responsible sources at fair and reasonable prices.
Inadequate forward pricing rate policy at DCMA can jeopardize DoD checks and
balances used to ensure that at least $70 billion in negotiated U.S. Government
sales result in fair and reasonable contract prices for DoD and the taxpayer.

	3	
      See Appendix A, Scope and Methodology, Table A-1 Estimated Value of Proposed Indirect Costs at the Eight Locations.




Indirect Cost Allocation Rates
Contractors allocate indirect costs to their Government contracts through the use of
indirect cost allocation rates. Regarding how indirect cost rates are developed, the
Defense Acquisition University in its Contract Pricing Reference Guide, Volume 3 –
“Cost Analysis,” Chapter 9, “Analyzing Indirect Costs,” paragraph 9.1, states:

                 Indirect cost rates are expressed in terms such as dollars per hour
                 or percentage of cost. Indirect cost rates are calculated for each
                 accounting period by dividing a pool of indirect cost for the same
                 period by the allocation base (e.g., direct labor hours or direct labor
                 cost) for the same period.

The Guide, paragraph 2.2, also states:

                 Once a rate is established, you can use it to determine the amount
                 of indirect cost that should be allocated to the contract. Simply
                 multiply the rate by the estimated or actual base in the contract for
                 that period. Contracts with a greater share of the allocation base
                 (e.g., direct labor dollars) will be charged a greater share of the
                 related indirect cost pool (e.g., manufacturing overhead). Contracts
                 with a smaller share of the base will be charged a smaller share of
                 the related indirect cost pool.



                                                                                                                            DODIG-2015-006 │ 3
Finding A



                 Forward Pricing Rate Recommendations and Agreements
                 The Glossary, DCMA Instruction 130, “Forward Pricing Rates,” defines a FPRR as:

                            [A] set of rates and factors unilaterally established by the ACO for
                            use by the Government in negotiations or other contract actions
                            when: (a) FPRA negotiations have not been completed; (b) when the
                            contractor will not agree to a FPRA; (c) if the audit report is not
                            consistent with a current FPRA or FPRR . . . ; or (d) as an alternative
                            when an FPRA is not in the best interest of the Government.

                 In the same Instruction, DCMA defines, in part, a FPRA as:

                            [A] written agreement negotiated between a contractor and the
                            Government to make certain rates, factors or other allocation
                            methods available for use in pricing contracts, modifications, and
                            other contractual actions that will be performed during the period
                            covered by the agreement. The FPRA or FPRR should represent
                            reasonable projections of specific costs that are not easily
                            estimated, identified with or generated by a specific contract end
                            item or task. The FPRA or FPRR could include rates for direct labor,
                            indirect costs, general and administrative expenses, and cost of
                            money factors.


                 FAR Criteria
                 FAR 42.1701(b) requires that the ACO shall obtain the contractor’s forward pricing
                 rate proposal and require that it includes cost or pricing data that are accurate,
                 complete, and current as of the date of submission. When a contracting officer
                 receives a proposal submitted with certified cost or pricing data, FAR 15.404-1(a)(3)
                 requires that “cost analysis shall be used to evaluate the reasonableness of individual
                 cost elements when certified cost or pricing data are required.” When performing
                 cost analysis, FAR 15.404-1(c)(2) states:

                            The Government may use various cost analysis techniques and
                            procedures to ensure a fair and reasonable price, given the
                            circumstances of the acquisition. Such techniques and procedures
                            include the following:

                              (i)	 Verification of cost data or pricing data and evaluation of
                                   cost elements, including—

                                 (A)	 The necessity for, and reasonableness of, proposed
                                      costs, including allowances for contingencies…

                 FAR 15.404-1(c)(2) provides five additional subdivisions that identify multiple cost
                 analysis techniques and procedures that a contracting officer may use to establish
                 that a contractor’s proposal is fair and reasonable (See Appendix B).




4 │ DODIG-2015-006
                                                                                                                                      Finding A



DCMA Policy
DCMA Instruction 130, “Forward Pricing Rates,” establishes policies, assigns
responsibilities, and provides procedures for developing and monitoring FPRRs
and FPRAs. Chapter 3, “Procedures,” paragraph 3.3.1, “Conduct Proposal Analysis,”
states that:

                The objective of the analysis is to determine whether the ACO may
                accept the contractor’s proposed rates as being fair and reasonable.

The Instruction lists five techniques and procedures that the ACO shall include
as a minimum in their analysis. In Appendix B we have listed the five DCMA
procedures as well as the cost analysis techniques and procedures provided at
FAR 15.404-1(c)(2).

We identified the following policy inadequacies in DCMA Instruction 130, “Forward
Pricing Rates,” that diminish the likelihood that the ACO will perform sufficient
cost analysis techniques and procedures to demonstrate fair and reasonable
contract pricing. DCMA Instruction 130, “Forward Pricing Rates,” does not
clearly address:

        •	 the requirement identified at FAR 15.404-1(a)(3) that cost analysis4 shall
           be used to evaluate the reasonableness of individual cost elements when
           certified cost or pricing data are required.
        •	 the cost analysis techniques and procedures, including those identified
           in Appendix B, that the ACO needs to perform to establish that a
           DCMA forward pricing rate recommendation will demonstrate fair and
           reasonable pricing.
        •	 the cost analysis techniques and procedures, including those identified in
           Appendix B, that the ACO needs to perform to establish that a DCMA forward
           pricing rate agreement will demonstrate fair and reasonable pricing.

DCMA Practice at Eight Contractor Locations
We visited eight contractor locations and held fact finding sessions with the DCMA
ACO. 5 Significant findings resulting from the site visits included the following:

        •	 At six of eight locations, DCMA was not able to demonstrate with case file
           documentation (i), the cost analysis techniques and procedures performed


	4	
    FAR 15.404-1(c)(1) states that cost analysis is the review and evaluation of any of the separate cost elements and profit
    or fee in a contractor’s proposal as needed to determine a fair and reasonable price.
	5	
    At each fact-finding session, the acquisition policy in FAR 15.4 was discussed and the ACO was given the opportunity to
    demonstrate with existing documentation how they had met the policy. The results of the fact-finding were shared with
    each ACO and each ACO was given a second opportunity to demonstrate with case file documentation that they had
    met the FAR policy. In each case, at the culmination of the site visit the ACO acknowledged concurrence with the OIG
    observations.




                                                                                                                                DODIG-2015-006 │ 5
Finding A



                          to verify the contractor’s cost or pricing data (FAR 15.404-1(c)(2)(i)) and (ii)
                          the cost analysis techniques and procedures used to evaluate the necessity
                          for, and reasonableness of proposed costs (FAR 15.404-1(c)(2)(i)(A)).
                      •	 At three of eight locations, DCMA was not able to demonstrate with case
                         file documentation the cost analysis techniques and procedures used to
                         compare costs proposed by the offeror for individual cost elements with
                         actual costs previously incurred by the same offeror (FAR 15.404-1(c)(2)
                         (iii)(A)).
                      •	 At six of eight locations, DCMA was not able to demonstrate with case
                         file documentation the cost analysis techniques and procedures used to
                         compare costs proposed by the offeror for individual cost elements with
                         forecasts of planned expenditures (FAR 15.404-1(c)(2)(iii)(E)).
                      •	 At seven of eight locations, DCMA was not able to demonstrate with
                         case file documentation the cost analysis techniques and procedures
                         used to verify that the contractor’s rate proposal was in accordance
                         with the contract cost principles and procedures in FAR Part 31 and,
                         when applicable, the requirements and procedures in 48 Code of Federal
                         Regulations Chapter 99 (Appendix to the FAR loose leaf edition), Cost
                         Accounting Standards (FAR 15.404-1(c)(2)(iv)).

                 At each location, the DCMA ACOs was not able to demonstrate that they had
                 performed any other cost analysis technique or procedure, including those
                 identified at paragraph 3.3.1 of DCMA Instruction 130, “Forward Pricing Rates,”
                 to attain the same result. Additionally, in only one instance did the DCMA ACO
                 have a working knowledge of the cost model used by the contractor to estimate its
                 proposed forward pricing indirect rates.

                 DCMA policy should direct ACOs to perform a cost analysis. It should identify the
                 minimum cost analysis techniques and procedures that should be performed to
                 demonstrate that use of a DCMA FPRR or FPRA will result in fair and reasonable
                 contract prices, a requirement of FAR 15.402. With adequate DCMA policy
                 direction, DoD contracting officers will be better positioned to negotiate fair and
                 reasonable contract prices for the Government and taxpayer on at least $70 billion
                 in negotiated Government sales.




6 │ DODIG-2015-006
                                                                                          Finding A



Management Actions Taken
On July 21, 2014, DCMA revised Instruction 130, “Forward Pricing Rates.” The
revisions address the requirement to perform cost analysis. They identify and
address cost analysis techniques and procedures, including those identified in
FAR 15.404-1(c)(2), that can be used to ensure fair and reasonable rates. The
Instruction also includes the mandatory use of two checklists that were developed
in order to incorporate the DoDIG findings; the FPRP Adequacy Checklist and the
FPRA Review checklist.


Recommendation, Management Comments, and
Our Response
Recommendation A
We recommend the Director, DCMA, provide training to the ACO community
on the use of cost analysis to determine fair and reasonable FPRR and
FPRA rates.

Director, Defense Contract Management Agency Comments
The Director, DCMA concurred to the recommendation and is implementing
classroom and on the job training to improve the cost analyst skill set of the
ACO community.

Our Response
The management comments to the recommendation are responsive and no
additional comments are required.




                                                                                    DODIG-2015-006 │ 7
Finding B




                 Finding B
                 ACOs Did Not Tailor Requests for Audit Services to
                 Reflect the Minimum Information Needed to Perform
                 a Cost Analysis
                 FAR 15.404-2 states that a contracting officer should request field pricing
                 assistance, which may include audit, when the information available at the buying
                 activity is inadequate to determine a fair and reasonable price. It requires
                 that contracting officers tailor the request to reflect the minimum essential
                 supplementary information needed to conduct a cost analysis. The DCMA case file
                 documentation that we reviewed did not demonstrate the requirement that the
                 ACO tailor the request for audit services. Additionally, DCMA’s forward pricing rate
                 policy does not adequately address this requirement. DCMA has established a
                 30-day target for issuing a FPRR and a 60-day target for issuing a FPRA after
                 receipt of a contractor forward pricing rate proposal. Defense Contract Audit
                 Agency (DCAA) took at least 163 days to provide an audit report at the five
                 locations where DCAA responded to the ACO request. A tailored request for audit
                 services can ensure that scarce DoD contract administration and contract audit
                 services are used effectively and efficiently. It can also increase the likelihood
                 that DCMA will receive a timely report from the auditor that addresses only the
                 minimum essential supplementary information needed by the ACO to demonstrate
                 that the DCMA FPRR and FPRA rates are fair and reasonable.



                 FAR Criteria
                 FAR 15.404-2, “Data to Support Proposal Analysis,” provides guidance to the
                 contracting officer when requesting field pricing assistance, which may include
                 audit assistance. It states that the contracting officer:

                      •	 should request field pricing assistance when the information available at
                         the buying activity is inadequate to determine a fair and reasonable price,
                      •	 shall tailor requests to reflect the minimum essential supplementary
                         information needed to conduct a cost analysis, and
                      •	 shall tailor the type of information and level of detail requested by the
                         buying activity in accordance with the specialized resources available as
                         well as the magnitude and complexity of the required analysis.




8 │ DODIG-2015-006
                                                                                            Finding B



DCMA Policy
DCMA Instruction 130, “Forward Pricing Rates,” Chapter 3, “Procedures”,
paragraph 3.3.2.1, “DCAA Audit”, subparagraph 3.3.2.1.1, “Request”, states that:

           The [ACO] may request a DCAA audit when the contractor submits
           a rate proposal […] and the [ACO] determines that functional
           support from audit is required to support a sound rate position
           for negotiation. While awaiting the results of the audit, if delay of
           issuing the audit report is anticipated, the [ACO] shall continue to
           analyze and develop a negotiation objective and proceed to establish
           an FPRR as a minimum.

We identified the following policy inadequacies in DCMA Instruction 130, “Forward
Pricing Rates,” that diminish the likelihood that the ACO will tailor a request for
audit services in accordance with FAR 15.404-2. DCMA Instruction 130, “Forward
Pricing Rates” does not address the requirements identified at:

     •	 FAR 15.404-2(a)(1) that the contracting officer shall tailor audit requests
        to reflect the minimum essential supplementary information needed to
        conduct a cost analysis, and
     •	 FAR 15.404-2(a)(2) that the contracting officer must tailor the type
        of information and level of detail requested in accordance with the
        specialized resources available at the buying activity and the magnitude
        and complexity of the required analysis.

DCMA Practice at Eight Contractor Locations
The DCMA case file documentation at the eight contractor locations we visited
did not demonstrate that the ACO had tailored the request for audit services to
reflect the minimum essential supplemental information needed to perform a
cost analysis, a requirement of FAR 15.404-2(a)(1). At none of the eight locations
did we find that the request for audit had been tailored to reflect the minimum
essential supplementary information needed to conduct a cost analysis. Likewise,
the case file documentation did not demonstrate that the ACO had tailored the type
of information and level of detail requested in accordance with the specialized
resources available and the magnitude and complexity of the required analysis.

Regarding audit services, DCAA stated that they will complete the audit of the
contractor’s forward pricing rate proposal (FPRP) in as short a timeframe as
possible while meeting generally accepted government auditing standards. DCAA
will provide real-time communication of audit findings to the ACO throughout
the audit process but their audits are not impacted by the 30 and 60 day periods




                                                                                      DODIG-2015-006 │ 9
Finding B



                 established by DCMA for completion of rate recommendations and agreements.
                 They confirmed that DCAA audit policy is to generally perform limited scope
                 audits and agreed-upon procedures when requested by the ACO. Table 2 identifies
                 the number of FPRP audit reports issued in FYs 2012 and 21036 and the average
                 number of elapsed days between the start of the request for audit and the issuance
                 of the report.

                 Table 2. DCAA Audit Reports Issued on Contractor FPRPs

                                Fiscal Year                         No. of Audit Reports                           Elapsed Days
                                    2012                                       428                                       177
                                    2013                                       412                                       189

                 A tailored request for audit can help direct DCAA audit effort to those areas where
                 the ACO has identified the need for specialized audit resources. It can also help the
                 ACO conduct cost analyses while obtaining the minimum essential supplementary
                 information required for the job. Tailored requests for audit can also minimize the
                 potential for duplication of proposal review activities by the ACO and the auditor.

                 DoD contracting officers need timely, FAR-compliant DCMA forward pricing rates
                 to negotiate fair and reasonable contract prices. DCMA has established 30 and
                 60 day targets to meet this need. Tailored requests for audit services can help
                 DCMA meet these targets while providing FPRRs and FPRAs that demonstrate fair
                 and reasonable pricing.


                 Recommendation, Management Comments, and
                 Our Response
                 Recommendation B.1
                 We recommend the Director, DCMA:

                 Evaluate DCMA Instruction 130, “Forward Pricing Rates,” and, where
                 applicable, revise it to:

                          a.	 Address the FAR 15.404-2(a)(1) requirement that the ACO shall
                              tailor the request for audit services to reflect the minimum essential
                              supplementary information needed to conduct a cost analysis.




                 	6	
                       DCAA stated that they had issued revised audit policy on FPRP audits in FY 2012. Audits started after the revised
                       guidance was issued have been completed on average in 145 days.




10 │ DODIG-2015-006
                                                                                               Finding B



Director, Defense Contract Management Agency Comments
The Director, DCMA, concurred in principle. DCMA identified two obstacles that, in
its opinion, could prevent implementation of FAR 15.404-2(a)(1) at this time. First,
DCMA stated it cannot dictate or restrict the DCAA auditor’s scope and procedures.
Second, the Director stated that DCAA will currently not agree to a tailored request
if it needs to rely on work performed by DCMA. DCMA pointed out that it is
conducting a pilot project involving the DCMA cost monitoring program to in part
evaluate the feasibility of DCAA accepting a tailored audit request. DCMA stated it
will amend its policy, as appropriate, based on the results of the pilot.

Our Response
The management comments to the recommendation are responsive and no
additional comments are required. We will monitor the DCMA actions resulting
from the pilot project for compliance with FAR 15.404-2(a)(1).

To reiterate, DCMA is required to tailor its request for audit services in accordance
with FAR 15.404-2(a)(1). The obstacles identified by DCMA should not prevent
the ACO from timely implementing the recommendation. The ACO’s responsibility
to tailor the audit request does not equate to dictating the scope and depth of
the audit. Appropriately tailoring an audit request to meet the ACO’s needs does
not equate to dictating the scope and depth of the audit. In addition, existing
DCAA policy does address instances when the auditor should recommend to
the contracting officer additional audit procedures beyond the tailored request.
However, DCAA Contract Audit Manual 9-103.1.d(4) points out that the final
decision for specific cost information rests with the contracting officer.

     b.	 Address the FAR 15.404-2(a)(2) requirement that the ACO shall tailor
         the type of information and level of detail requested in accordance
         with the specialized resources available and the magnitude and
         complexity of the required analysis.

Director, Defense Contract Management Agency Comments
The Director, DCMA, agreed. DCMA covered the FAR requirement in the latest
version of DCMA Instruction 130.

Our Response
The management comments to the recommendation are responsive and no
additional comments are required.




                                                                                        DODIG-2015-006 │ 11
Finding B



                 Recommendation B.2
                 Provide training to the ACO community on the FAR requirement to tailor the
                 request for audit services.

                 Director, Defense Contract Management Agency Comments
                 The Director, DCMA concurred to the recommendation and will provide training
                 based on the results of the pilot project.

                 Our Response
                 The management comments to the recommendation are responsive and no
                 additional comments are required.




12 │ DODIG-2015-006
                                                                                                                                       Finding C




Finding C
DCMA Policy Can Better Identify the Requirements of
a Contract Case File for Forward Pricing Rates
The DCMA ACOs at the eight locations we reviewed could not provide a DCMA
policy requiring they establish a contract case file for the FPRRs and FPRAs that
were used to negotiate an estimated $4.5 billion in contractor proposed indirect
costs. FAR Subpart 4.8 – “Government Contract Files,” states that the head of each
office performing contract administration functions shall establish files containing
the records of all contractual actions. DCMA policy does not identify the case file
documentation that is required to demonstrate the cost analysis techniques and
procedures performed by the ACO to determine fair and reasonable forward pricing
rates. Without sufficient case file documentation, DCMA is not positioned to
demonstrate to Congress the actions taken to oversee the expenditure of least
$70 billion in DoD contract funds.



FAR Criteria
FAR Subpart 4.8 – “Government Contract Files” prescribes requirements for
establishing, maintaining, and disposing of contract files and provides that the
head of each office performing contracting, contract administration, or paying
functions shall establish files containing the records of all contractual actions.7
Examples of the records normally required in contract files are cost analysis and
data and information related to the contracting officer’s determination of a fair
and reasonable price. Additionally, FAR 15.406-3, “Documenting the Negotiation,”
requires that the contracting officer shall document in the contract file the
principal elements of the negotiated agreement.

DCMA Policy
DCMA Instruction 130, “Forward Pricing Rates,” includes policy for documenting
disagreements with the auditor, the ACO’s prenegotiation objectives, and rate
monitoring activities. Paragraph 3.4, “Document and Review Prenegotiation
Objectives,” identifies the requirement that the ACO prepare the pre-negotiation
memorandum (PNOM) and that the PNOM shall be approved prior to negotiation of
a FPRA or the issuance of a FPRR. DCMA policy also makes available a standard
PNOM template. Regarding records management, DCMA Instruction 130, “Forward
Pricing Rates,” provides that all FPRR or FPRA supporting materials shall be
retained in accordance with DCMA Instruction 809, “Records Management.”

	7	
      FAR 4.802 describes what a contract file should generally consist of and provides that, if appropriate, the contracting
      office and contract administration contract files may be combined; e.g., if all or any combination of functions are
      performed by the same office.


                                                                                                                                DODIG-2015-006 │ 13
Finding C



                 We identified the following policy inadequacies in DCMA’s record management
                 policy that diminish the likelihood the ACO will document the contract file in
                 accordance with the requirements of FAR Subpart 4.8, “Government Contract Files.”

                      •	 DCMA Instruction 130, “Forward Pricing Rates,” does not require the
                         ACO to document and include in the contract case file the cost analysis
                         performed by the ACO to determine fair and reasonable rates.
                      •	 DCMA Instruction 130, “Forward Pricing Rates,” does not require the ACO
                         to include in the contract case file the data and information related to the
                         contracting officer’s determination of fair and reasonable prices.
                      •	 The standard PNOM template, Section I, “Cost Analysis,” does not include
                         reference to any cost analysis techniques and procedures performed by
                         the ACO.
                      •	 DCMA Instruction 809, “Records Management,” does not provide policy
                         for establishing, maintaining, and disposing of Government contract
                         case files sufficient to constitute a complete history of a FPRR and
                         FPRA transaction.

                 DCMA Practice at Eight Contractor Locations
                 During our site visits to the eight DCMA locations, we made the following
                 observation:

                      •	 At all eight locations, the ACO could not provide a DCMA policy that
                         included a requirement to establish a contract case file containing the
                         complete record of all contractual actions as they relate to the FPRR
                         and FPRA.

                 With clear policy, DCMA ACOs can be in a position to establish a contract case
                 file that complies with the requirements of FAR Subpart 4.8. Such a contract
                 case file can provide a record of the actions the ACO has taken to establish fair
                 and reasonable FPRR and FPRA rates that contracting officers use to negotiate at
                 least $70 billion in negotiated Government sales at the 353 locations where DCMA
                 administers forward pricing rates.

                 Management Actions Taken
                 On July 21, 2014, DCMA revised Instruction 130, “Forward Pricing Rates.” The
                 revision addresses the need for the ACO to include in the contract case files the
                 cost analysis techniques and procedures that were performed to determine fair and
                 reasonable FPRR and FPRA rates.




14 │ DODIG-2015-006
                                                                                          Finding C



Recommendation, Management Comments, and
Our Response
Recommendation C.1
We recommend the Director, DCMA:

Evaluate DCMA Instruction 809, “Records Management,” and, where
applicable, revise it to comply with FAR Subpart 4.8, “Government Contract
Files” when establishing, maintaining, and disposing of Government contract
case files sufficient to constitute a complete history of an FPRR or
FPRA transaction.

Director, Defense Contract Management Agency Comments
The Director, DCMA concurred to the recommendation and is rescinding and
revising DCMA policy to comply with FAR Subpart 4.8 and ensure the proper
handling of Government contract case files.

Our Response
The management comments to the recommendation are responsive and no
additional comments are required.

Recommendation C.2
Provide training to the ACO community on (1) the need to document in the
contract case file the cost analysis performed and the data and information
related to the contracting officer’s determination of fair and reasonable
FPRR and FPRA rates, (2) the use of the revised PNOM template, and (3) any
revisions made to DCMA Instruction 809, “Records Management,” to ensure
the Government contract case file is sufficient to constitute a complete
history of an FPRR or FPRA transaction.

Director, Defense Contract Management Agency Comments
The Director, DCMA concurred to the recommendation and will provide training
on the need to document in the case file the cost analysis performed, the use of the
revised PNOM template, and the changes resulting from the revised policy.

Our Response
The management comments to the recommendation are responsive and no
additional comments are required.




                                                                                   DODIG-2015-006 │ 15
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this review from May 2013 through March 2014 in accordance with
                 the Council of the Inspectors General on Integrity and Efficiency “Quality Standards
                 for Inspection and Evaluation.” As part of the review, we selected eight contractor
                 locations where DCMA administers forward pricing rates from a listing of DCAA
                 price proposal audit reports issued between October 2011 and February 2013. Our
                 selection of the eight locations was based on our consideration of dollar value of
                 the contractor proposals submitted to the U.S. Government and the military service
                 (Army, Navy or Air Force) making the procurement.

                 To estimate the amount of proposed indirect costs included in the negotiated
                 Government sales, we judgmentally selected a high-dollar firm-fixed price contract
                 proposal submitted to the Government for each contractor identified in Table 1
                 of this report. The eight proposals had an average proposed price of $1.2 billion
                 and ranged in proposed price from $296 million to $2.5 billion. For these eight
                 proposals, the proposed indirect costs equaled approximately $1.9 billion of
                 the total proposed price of approximately $8.9 billion, or 21 percent of the total
                 proposed price. As reflected in Table A-1, we roughly estimate that the DCMA
                 FPRRs and FPRAs we reviewed were used as the basis to negotiate approximately
                 $4.5 billion in contractor proposed indirect costs at the eight locations.

                 Table A-1. Estimated Value of Proposed Indirect Costs at the Eight Locations

                      Value of negotiated Government sales, eight locations:                    $21.5 billion
                          Percent of proposed indirect costs to proposed price                      21 %
                          Estimated value of indirect costs included in negotiated Government   $4.5 billion
                          sales

                 The 21 percent factor provides a rough-order-of-magnitude estimate of proposed
                 indirect costs for use in determining a potential magnitude of indirect cost dollars
                 in the Forward Pricing Rate arena. As stated in Footnote 2, DCMA does not
                 compile this information. As shown in Table A-2, we estimate the value of indirect
                 costs to be roughly $14.7 billion for all 353 contractor locations where DCMA
                 administers forward pricing rates.




16 │ DODIG-2015-006
                                                                                                 Appendixes



Table A-2. Non-statistical Approximation of Proposed Indirect Costs Negotiated Using
DCMA Provided FPRA and FPRR Indirect Rates
 Estimated value of negotiated Government sales at the 353 contractor        $70 billion
 locations where DCMA establishes forward pricing rates:
     Percent of proposed indirect costs to proposed price at eight              21 %
     locations reviewed:
     Non-statistical approximation of negotiated indirect costs             $14.7 billion

DCMA also establishes FPRRs and FPRAs for contractor proposed direct labor
costs, facilities capital cost of money and other cost estimating factors, depending
upon the contractor and the needs of the contracting officers. We did not review
these rates and factors as part of this review.


Use of Computer-Processed Data
In selecting audits, we relied on a DCAA FY 2012 and FY 2013 listing of reports
generated from the DCAA Management Information System. We did not selectively
test the listing for accuracy and completeness.

In obtaining negotiated Government sales data at the eight contractor locations
we visited, we relied upon information provided by the DCMA ACOs. We
did not selectively test the negotiated Government sales data for accuracy and
completeness.

In obtaining information on the number of FPRP audit reports issued by DCAA,
we relied upon information generated from the DCAA Management Information
System. We did not selectively test the listing for accuracy and completeness.


Prior Coverage
During the last 5 years, the DOD IG has issued one report related to the cost
analysis performed by DCMA. The unrestricted DoD IG report can be accessed at
http://www.dodig.mil.

DoD IG Report No. DODIG-2013-015, “Actions to Align Defense Contract
Management Agency and Defense Contract Audit Agency Functions,”
November 13, 2012




                                                                                            DODIG-2015-006 │ 17
Appendixes




                 Appendix B
                 Identification of Cost Analysis Techniques and
                 Procedures Included in the FAR and in DCMA-
                 Instruction 130, “Forward Pricing Rates”
                      1.	 FAR 15.404-1 “Proposal Analysis Techniques,” (c) “Cost Analysis,”
                          Paragraph (2) provides regulatory guidance on the use of cost analysis
                          techniques and procedures, as follows:
                             	   The Government may use various cost analysis techniques and
                                 procedures to ensure a fair and reasonable price, given the
                                 circumstances of the acquisition. Such techniques and procedures
                                 include the following:
                                    (i)	 Verification of cost data or pricing data and evaluation of
                                         cost elements, including—
                                           (A)	 The necessity for, and reasonableness of, proposed
                                                costs, including allowances for contingencies;
                                           (B)	 Projection of the offeror’s cost trends, on the basis
                                                of current and historical cost or pricing data;
                                           (C)	 Reasonableness of estimates generated by
                                                appropriately calibrated and validated parametric
                                                models or cost-estimating relationships; and
                                           (D)	 The application of audited or negotiated indirect
                                                cost rates, labor rates, and cost of money or other
                                                factors.
                                    (ii)	 Evaluating the effect of the offeror’s current practices on
                                          future costs. In conducting this evaluation, the contracting
                                          officer shall ensure that the effects of inefficient or
                                          uneconomical past practices are not projected into
                                          the future. In pricing production of recently developed
                                          complex equipment, the contracting officer should perform
                                          a trend analysis of basic labor and materials, even in
                                          periods of relative price stability.
                                    (iii)	 Comparison of costs proposed by the offeror for individual
                                           cost elements with—
                                           (A)	 Actual costs previously incurred by the same
                                                offeror;
                                           (B)	 Previous cost estimates from the offeror or from
                                                other offerors for the same or similar items;




18 │ DODIG-2015-006
                                                                                       Appendixes



                       (C)	 Other cost estimates received in response to the
                            Government’s request;
                       (D)	 Independent Government cost estimates by
                            technical personnel; and
                       (E)	 Forecasts of planned expenditures.
               (iv)	 Verification that the offeror’s cost submissions are
                     in accordance with the contract cost principles and
                     procedures in FAR Part 31 and, when applicable, the
                     requirements and procedures in 48 CFR Chapter 99
                     (Appendix to the FAR loose leaf edition), Cost Accounting
                     Standards.
               (v)	 Review to determine whether any cost data or pricing
                    data, necessary to make the offeror’s proposal suitable for
                    negotiation, have not been either submitted or identified
                    in writing by the offeror. If there are such data, the
                    contracting officer shall attempt to obtain and use them
                    in the negotiations or make satisfactory allowance for the
                    incomplete data.
               (vi)	 Analysis of the results of any make-or-buy program
                     reviews, in evaluating subcontract costs (see FAR 15.407-2).

2.	 DCMA Instruction 130, “Forward Pricing Rates,” provides at Chapter 3,
    “Procedures,” paragraph 3.3.1, “Conduct Proposal Analysis,” that:

         3.3.1. The objective of the analysis is to determine whether
         the ACO may accept the contractor’s proposed rates as
         being fair and reasonable. The analysis shall include at a
         minimum an assessment of whether:

         3.3.1.1. The contractor’s bases of estimates are reasonable.

         3.3.1.2. The supporting cost or pricing data are current,
         accurate, and complete as of the date of submission (FAR
         42.1701, paragraph (b) (Reference (d))).

         3.3.1.3. The contractor’s estimating practices comply
         with the contractor’s disclosed or established cost
         accounting practices. Potential Cost Accounting Standard
         (CAS) non-compliance issues will be addressed during
         the CAS administration process and will not impede the
         establishment of FPRR/FPRAs.

         3.3.1.4. Projected business volume, allocation bases,
         and indirect costs are reasonable and consistent with
         contractor and customer business projections.

         3.3.1.5. Rate computations are mathematically correct.



                                                                                  DODIG-2015-006 │ 19
Management Comments




                 Management Comments
                 Defense Contract Management Agency Comments




20 │ DODIG-2015-006
                                                                                             Appendixes



Defense Contract Management Agency Response to DoDIG
Recommended Actions
RECOMMENDATION A: We recommend the Director, DCMA, provide training to the
ACO community on the use of cost analysis to determine fair and reasonable FPRR
and FPRA rates.

DCMA RESPONSE: We agree with the draft report recommendation. To implement
the recommendation, we will and have implemented two different approaches:
classroom training and on the job training.

On October 28, 2011, DCMA, and the Defense Acquisition University established the
College of Contract Management (CCM) to provide “reduction to practice courses”
specifically geared toward training in the skills required by DCMA personnel
performing business processes in the contract administration role. A suite of
courses currently being developed will teach cost analysis techniques for all
proposal pricing and, more specifically, the use of cost analysis to determine fair
and reasonable FPRR and FPRA rates. The courses are CMP 200 “Integrated Cost
Proposal Evaluation,” CMP 210 “Cost Monitoring,” CMP 210A “Final Indirect Rates,”
and CMP 210B “Forward Pricing Rates.” The CCM plans to deploy these courses by
the end of calendar year 2015. In addition, the current CPAC 123 – Cost Monitoring
Training which is the current DCMA course for new ACOs and cost monitors, will be
reinforced by allocating more time to discuss cost analysis techniques.

On the job, where most training takes place, DCMA subjects all FPRA/R pre-
negotiation and FPRA post negotiation memorandums to a thorough review at
FPRA Boards of Review (BoR) held by the CACO/DACO Group in the Cost and
Pricing Center. The BoR includes the review of the cost analyses performed to
establish an FPRA/R. The BoR consists of experienced CACOs, DACOs, supervisory
price/cost analysts and legal counsel. DCAA personnel are invited to attend
and actively participate. Lessons learned regarding the level of cost analysis to
support an FPRR/A are shared among the teams and the best practice examples
are available to review for establishing fair and reasonable rates. Additionally, the
current on the job training will benefit from the use of “FPRP review checklist”
which was newly developed and included as a requirement in the most recent
update of DCMA Instruction 130 “Forward Pricing Rates” dated July 21, 2014.

RECOMMENDATION B.1.: Evaluate DCMA Instruction 130, “Forward Pricing Rates,”
and, where applicable, revise it to:

a. Address the FAR 15.404-2(a)(1) requirement that the ACO shall tailor the request for
audit services to reflect the minimum essential supplementary information needed to
conduct a cost analysis.




                                                                                        DODIG-2015-006 │ 21
Appendixes



                 b. Address the FAR 15.404-2(a)(2) requirement that the ACO shall tailor the type of
                 information and level of detail requested in accordance with the specialized resources
                 available and the magnitude and complexity of the required analysis.

                 DCMA RESPONSE: We agree in principle with the draft report recommendation B.1.a.;
                 however we cannot agree to implement the policy recommendation at this time.
                 When an ACO determines audit support is necessary, the scope of the audit should
                 be tailored to cover areas to be reviewed that can best be performed by an auditor.
                 However, DCMA cannot dictate or restrict any audit procedures or audit scopes.
                 Such is within the exclusive purview of DCAA and outside of the control of the ACO.
                 Currently, if an ACO tailors a request to DCAA for a limited review of elements in a
                 forward pricing rate proposal, DCAA will not agree to the tailored request if DCAA
                 has to rely on DCMA’s work to cover the areas DCAA determines it needs to audit
                 over and above the tailored request. At the current time, DCAA field audit offices
                 have no guidance regarding relying on the work of a DCMA cost monitoring team in
                 lieu of performing required audit steps.

                 We want to use advisory experts wisely and only to the extent necessary in
                 conformance with the cited FAR provision. Currently, we are conducting a pilot
                 project with DCAA looking at the DCMA cost monitoring program performance
                 where DCAA might accept a tailored audit request. The outcome hinges on whether
                 DCAA can rely on the work of DCMA cost monitoring teams and under what
                 conditions. A copy of the signed charter for the pilot is attached. If the results of
                 the pilot project drive any DCMA/DCAA process changes, we will amend our policy
                 accordingly. We should be able to make the determination by February 2015.

                 We agree with draft report recommendation B1.b. and we have adequately
                 addressed the recommendation in the most current version of our policy. On July
                 21, 2014, we published an annual update of DCMA Instruction 130 “Forward Pricing
                 Rates” and determined the language in the following paragraphs adequate to cover
                 the FAR requirement.

                 3.3.4.1.1. Request. The ACO or the CMS delegated by the ACO requests a DCAA audit
                 when the contractor submits a rate proposal or updated rate position and the ACO
                 or the CMS determines that functional support from DCAA is required to support
                 a sound rate position for negotiation. If the ACO and/or the CMS determine that a
                 DCAA audit is not necessary because they have the capability to conduct a thorough
                 review, they should justify the decision in the PNOM. While awaiting the results
                 of the audit, if delay in issuing the audit report is anticipated, the ACO and/or the
                 CMS shall continue to analyze and develop a negotiation objective and proceed to
                 establish an FPRR as a minimum.




22 │ DODIG-2015-006
                                                                                              Appendixes



3.3.4.2. Technical support reviews such as Overhead Should-Cost Reviews, pension/
insurance specialists, engineering, industrial specialists, or legal review should
be obtained where subject matter expertise is expected to be beneficial to the
development of rates. The ACO shall be responsible for determining the need for
the reviews and audit.

RECOMMENDATION B.2: Provide training to the ACO community on the FAR
requirement to tailor the request for audit services.

DCMA RESPONSE: We agree with the draft report recommendation and will
provide training when and if the current process changes as a result of the
pilot project conclusions. Please refer to the discussion under draft audit report
finding B.1.

RECOMMENDATION C.1: Evaluate DCMA Instruction 809, “Records Management,” and,
where applicable, revise it to comply with FAR Subpart 4.8, “Government Contract
Files” when establishing, maintaining, and disposing of Government contract case files
sufficient to constitute a complete history of an FPRR or FPRA transaction.

DCMA RESPONSE: We agree with the draft report recommendation. DCMA INST
809 “Records Management” is to be rescinded, pending memo coordination. The
policy, along with DCMA INST 808 “Data Management”, will be superseded by an
overarching Enterprise Architecture (EA) policy, which will address both records
management and data management. The policy will also support FAR Subpart
4.8 when referencing the proper handling of our Government contract case files.
The Enterprise Architecture Division has identified 2nd QTR February 2015 as the
proposed completion date for the overarching EA policy.

RECOMMENDATION C.2: Provide training to the ACO community on (1) the need to
document in the contract case file the cost analysis performed and the data and
information related to the contracting officer’s determination of fair and reasonable
FPRR and FPRA rates,

(2) the use of the revised PNOM template, and (3) any revisions made to DCMA
Instruction 809, “Records Management,” to ensure the Government contract case file is
sufficient to constitute a complete history of an FPRR or FPRA transaction.

DCMA RESPONSE: We agree with the draft report recommendation. As discussed
in our response to recommendation A, we will train on the need to document
in the case file the cost analysis performed and the use of the revised PNOM
template. IT will coordinate any requisite training needed as a result of the release
of overarching Enterprise Architecture policy, which will replace DCMA INST 809
“Records Management.”




                                                                                         DODIG-2015-006 │ 23
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                        ACO Administrative Contracting Officer
                        CAS Cost Accounting Standards
                      DCMA Defense Contract Management Agency
                      DCAA Defense Contract Audit Agency
                      DFARS Defense Federal Acquisition Regulation Supplement
                        DoD Department of Defense
                       FPRP Forward Pricing Rate Proposal
                       FPRR Forward Pricing Rate Recommendation
                       FPRA Forward Pricing Rate Agreement
                        FAR Federal Acquisition Regulation
                        OIG Office of Inspector General
                      PNOM Pre-negotiation Memorandum




24 │ DODIG-2015-006
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
